SUPREME COURT OF THE UNITES STATES

CASE NO.

Elizabeth Pastor

Pro-Petitioner

vs.

Partner for Children’s Rights

Respondent

AFFIDAVIT OF SERVICE
I Elizabeth Pastor, Petitioner and Pro Se Litigant is before The Supreme
Court of the United States in Washington, DC. I hereby affirm the following
under penalty of perjury:
That on the 13 day of July 2021,1 served a true and correct copy of the
foregoing Writ of Cert to the Supreme Court of the United States for review
and consideration.
Jackson Lewis P.C
Michael A. Frankel
44 South Broadway, 14th floor
White Plains, NY 10601
(914) 872-8060
By: Elizabeth Pastor

/

C

Dated: July 13, 2021
\\

6801-21st Avenue

k\

Brooklyn, NY 11204
(347)578-0323 cell phone
Goffi!

No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
VS.

f

-jfv (TriMry/Js .^RESPONDENTS)
PROOF OF SERVICE

SK 2gloc4A ftxsW'

, do swear or declare that on this date,
T VTi 1>y L t 3)
, 20 J5L; as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:

Mi'chaei
'Fran kel,
Tladcfian Lgwig P. C,
Whrte Plains ■ ft/ y
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

739

,20M

i

'Signature)

